                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 14-00908-194


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

    Hampton VA Medical Center 

         Hampton, Virginia 





June 30, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                                CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA



                                            Glossary 

                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MH         mental health
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                                          CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          2


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    11

  C. VISN Director Comments ..................................................................................                    15

  D. Facility Director Comments ...............................................................................                   16

  E. OIG Contact and Staff Acknowledgments .........................................................                              22

  F. Report Distribution .............................................................................................            23

  G. Endnotes ...........................................................................................................         24





VA OIG Office of Healthcare Inspections
                                CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted a site visit during the week of April 1, 2014, at the Albemarle
CBOC, Elizabeth City, NC, which is under the oversight of the Hampton VA Medical
Center and Veterans Integrated Service Network 6.

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Providers’ Proficiency review. However, we made
recommendations in the following three review areas:

Environment of Care. Ensure that:

	   The parent facility includes staff at the Albemarle CBOC in required education,
     training, planning, and participation in annual disaster exercises.

	   The parent facility’s Emergency Management Committee evaluates the Albemarle
     CBOC’s emergency preparedness activities, participation in annual disaster
     exercises, and staff training/education relating to emergency preparedness
     requirements.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	   Staff consistently complete diagnostic assessments for patients with a positive
     alcohol screen.

	   Staff provide education and counseling for patients with positive alcohol screens and
     drinking levels above National Institute on Alcohol Abuse and Alcoholism guidelines.

	   Registered Nurse Care Managers receive motivational interviewing and health
     coaching training within 12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	   Document that medication reconciliation was completed at each episode of care
     where the newly prescribed fluoroquinolone was administered, prescribed, or
     modified.

	   Staff consistently provide written medication information that includes the
     fluoroquinolone.

	   Staff provide medication counseling/education as required.




VA OIG Office of Healthcare Inspections                                                     i
                                CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA


Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes
C and D, pages 15−21, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                     ii
                                     CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA



                     Objectives, Scope and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at randomly selected CBOCs that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                          1
                                     CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                          CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted a physical inspection of the Albemarle CBOC.
The table below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement.

Table 2. EOC

NM                      Areas Reviewed                                     Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.


VA OIG Office of Healthcare Inspections                                                               3
                                          CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA


NM                  Areas Reviewed (cont.)                                    Findings
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
 X     The parent facility includes the CBOC in           The parent facility did not include the Albemarle
       required education, training, planning, and        CBOC in required education, training, planning,
       participation leading up to the annual disaster    and participation leading up to the annual
       exercise.                                          disaster exercises.
 X     The parent facility’s Emergency Management         The parent facility’s Emergency Management
       Committee evaluates CBOC emergency                 Committee did not evaluate the Albemarle
       preparedness activities, participation in annual   CBOC’s emergency preparedness activities,
       disaster exercise, and staff training/education    participation in annual disaster exercise, and
       relating to emergency preparedness                 staff training/education relating to emergency
       requirements.                                      preparedness requirements.

Recommendations

1. We recommended that the parent facility include staff at the Albemarle CBOC in required
education, training, planning, and participation in annual disaster exercises.

2. We recommended that the parent facility’s Emergency Management Committee evaluate the
Albemarle CBOC’s emergency preparedness activities, participation in annual disaster
exercises, and staff training/education relating to emergency preparedness requirements.



VA OIG Office of Healthcare Inspections                                                                       4
                                          CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 39 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

 NM                   Areas Reviewed                                         Findings
        Alcohol use screenings are completed during
        new patient encounters, and at least
        annually.
  X     Diagnostic assessments are completed for         Staff did not complete diagnostic assessments
        patients with a positive alcohol screen.         for 18 (46 percent) of 38 patients who had
                                                         positive alcohol use screens.
  X     Education and counseling about drinking          Staff did not provide education and counseling
        levels and adverse consequences of heavy         for two of eight patients who had positive alcohol
        drinking are provided for patients with          use screens.
        positive alcohol screens and drinking levels
        above National Institute on Alcohol Abuse
        and Alcoholism guidelines.
        Documentation reflects the offer of further
        treatment for patients diagnosed with alcohol
        dependence.
        For patients with AUD who decline referral to
        specialty care, CBOC/PCC staff monitored
        them and their alcohol use.
        Counseling, education, and brief treatments
        for AUD are provided within 2 weeks of
        positive screening.
  X     CBOC/PCC RN Care Managers have                   We found that all of the 20 RN Care Managers
        received motivational interviewing training      did not receive motivational interviewing training
        within 12 months of appointment to PACT.         within 12 months of appointment to PACT.
  X     CBOC/PCC RN Care Managers have                   We found that all of the 20 RN Care Managers
        received VHA National Center for Health          did not receive health coaching training within
        Promotion and Disease Prevention-approved        12 months of appointment to PACT.
        health coaching training (most likely TEACH
        for Success) within 12 months of
        appointment to PACT.
        The facility complied with any additional
        elements required by VHA or local policy.

Recommendations

3. We recommended that CBOC/Primary Care Clinic staff consistently complete diagnostic
assessments for patients with a positive alcohol screen.



VA OIG Office of Healthcare Inspections                                                                       5
                                          CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA


4. We recommended that CBOC/Primary Care Clinic staff provide education and counseling for
patients with positive alcohol screens and drinking levels above National Institute on Alcohol
Abuse and Alcoholism guidelines.

5. We recommended that CBOC/Primary Care Clinic Registered Nurse Care Managers receive
motivational interviewing training and health coaching training within 12 months of appointment
to Patient Aligned Care Teams.




VA OIG Office of Healthcare Inspections                                                               6
                                          CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

 NM                   Areas Reviewed                                        Findings
  X     Clinicians documented the medication             We did not find documentation that medication
        reconciliation process that included the         reconciliation included the newly prescribed
        fluoroquinolone.                                 fluoroquinolone in 8 (20 percent) of 40 patients’
                                                         EHRs.
  X     Written information on the patient’s             We did not find documentation that
        prescribed medications was provided at the       5 (13 percent) of 40 patients received written
        end of the outpatient encounter.                 information that included the fluoroquinolone.
  X     Medication counseling/education for the          We did not find documentation of medication
        fluoroquinolone was documented in the            counseling that included the fluoroquinolone in
        patients’ EHRs.                                  5 (13 percent) of 40 patients’ EHRs.
        Clinicians documented the evaluation of each
        patient’s level of understanding for the
        education provided.
        The facility complied with local policy.

Recommendations

6. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

7. We recommended that staff consistently provide written medication information that includes
the fluoroquinolone.

8. We recommended that staff provide medication counseling/education as required.




VA OIG Office of Healthcare Inspections                                                                      7
                                          CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

 NM                   Areas Reviewed                                       Findings
        CBOC and PCC DWHPs maintained
        proficiency requirements.
        CBOC and PCC DWHPs were designated
        with the WH indicator in the Primary Care
        Management Module.




VA OIG Office of Healthcare Inspections                                                               8
                                                                                  CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA
                                                                                                                                      Appendix A


                                                                       CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                          Uniques4                                   Encounters4

                                    Station                   CBOC
         Location         State                Locality5                    MH7        PC8       Other9       All       MH7         PC8      Other9        All
                                       #                       Size6
    Norfolk-Virginia
    Beach                 VA       590GB       Urban       Large           2,144       4,933      4,201      7,049      8,910      9,486 10,610          29,006
    Albemarle             NC       590GC       Rural       Mid-Size          483       1,787      1,106      2,010      3,009      5,099  3,974          12,082




3
  Includes all CBOCs in operation before March 31, 2013. 

4
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                          9
                                     CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.10

                                 Specialty Care                                                  Tele-Health
           CBOC                                                 Ancillary Services12
                                    Services11                                                   Services13
    Norfolk-Virginia               Optometry                        Pharmacy                 Tele Primary Care
    Beach                        Endocrinology                  MOVE! Program14
                               Medicine Specialties              Diabetic Retinal
                                                                    Screening
                                                                     Nutrition
                                                                    Chaplain
                                                                 Diabetes Care
    Albemarle                  Medicine Specialties                 Pharmacy                 Tele Primary Care
                                                                MOVE! Program
 




10
    Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC.

11
    Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
    Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

13
    Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

14 
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                           10
                                                                              CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA
                                                                                                                                  Appendix B


                                                         PACT Compass Metrics




                                                                                                                                                            
Data Definition.e The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level.

VA OIG Office of Healthcare Inspections                                                                                                               11
                                                                              CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the
1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.



VA OIG Office of Healthcare Inspections                                                                                                               12
                                                                               CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s assigned
primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of primary care
encounters WOP with a provider other than the patient’s PCP/AP.


VA OIG Office of Healthcare Inspections                                                                                                                13
                                                                                CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.


VA OIG Office of Healthcare Inspections                                                                                                                   14
                                CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA
                                                                                    Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                 Memorandum


           Date:       June 9, 2014

          From:        Director, VISN (10N6)

       Subject: 	      CBOC and PCC Reviews of the Hampton VA Medical
                       Center, Hampton, VA

             To: 	     Director, Washington, DC Office of Healthcare Inspections
                       (54DC)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)



             1. Attached is the action plan developed by the Hampton VA
             Medical Center in response to the recommendations received during
             their recent OIG review.

             2. The facility concurs with the findings and will ensure the corrective
             action plan is implemented.

             3. If you have any questions and/or concerns, please contact Lisa
             Shear, VISN 6 QMO, at (919) 956-5541.



             (original signed:)

             DANIEL F. HOFFMANN, FACHE




VA OIG Office of Healthcare Inspections                                                    15
                                CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA
                                                                                    Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                 Memorandum


           Date:       June 3, 2014

          From:        Director, Hampton VA Medical Center (590/00)

       Subject:        CBOC and PCC Reviews of the Hampton VA Medical
                       Center, Hampton, VA

             To:       Director, VISN 6 (10N6)


             1. Thank you for the opportunity to review the OIG report on the
                Review of Hampton VA Medical Center. We concur with the
                recommendations, and will ensure completion as described in the
                implementation plan.

             2. Please find attached our responses to each recommendation
                provided in the attached plan.

             3. If you have any questions regarding the response to the
                recommendations, feel free to call me at (757) 722-9961,
                extension 3100.


             (original signed by:)

             MICHAEL H. DUNFEE, MHA




VA OIG Office of Healthcare Inspections                                                    16
                                CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the parent facility include staff at the
Albemarle CBOC in required education, training, planning, and participation in annual
disaster exercises.

Concur

Target date for completion: October 31, 2014

Facility response:

Emergency Management Education and Training
The following actions have been initiated:

All APOC staff will complete the Emergency Preparedness Management Program in
Talent Management System (TMS) by June 2014.

Members of the Emergency Management Incident Command Team are required to
complete the following two (2) specialized Emergency Management Trainings:

1. FEMA’s National Incident Management System (NIMS) ICS 100, 200, 700, 800
   (TMS)
2. FEMA’s National Incident Management System (NIMS) ICS 300 (off site course)

The next scheduled offsite course is October 2014.

All assigned Emergency Management training by staff identified above will be
completed by October 31, 2014.

TMS Emergency Preparedness Management Program training status will be tracked in
TMS. The TMS reports will be reported monthly to Administrative Executive Board for
Leadership oversight through the Emergency Management Committee until closure.

Emergency Management Planning
The APOC/CBOC Service Specific plans were reviewed and approved by the
Emergency Management Committee in January 2012.

Emergency Management Participation:
The next scheduled Facility Emergency Management Exercise is a Tornado Warning
Exercise, and will occur NLT July 31, 2014. This exercise will be inclusive of both the
APOC and the parent facility. The tornado scenario will involve a series of tornado


VA OIG Office of Healthcare Inspections                                                    17
                                CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA


touchdowns in the Hampton Roads (parent facility geographic area) and Elizabeth City
(APOC geographic area). The After Action Report (AAR) of the Tornado Warning
Exercise will document the parent facility and APOC participation in this severe weather
event. The AAR will be reported to the August Administrative Executive Board through
the Emergency Management Committee for Leadership oversight.

Recommendation 2.             We recommended that the parent facility’s Emergency
Management Committee evaluate the Albemarle CBOC’s emergency preparedness
activities, participation in annual disaster exercises, and staff training/education relating
to emergency preparedness requirements.

Concur

Target date for completion: August 31, 2014

Facility response:

The next scheduled Facility Emergency Management Exercise is a Tornado Warning
Exercise, and will occur NLT July 31, 2014. This exercise will be inclusive of both the
APOC and the parent facility. The tornado scenario will involve a series of tornado
touchdowns in the Hampton Roads (parent facility geographic area) and Elizabeth City
(APOC geographic area). The After Action Report (AAR) of the Tornado Warning
Exercise will document the evaluation of this severe weather event. The AAR will be
reported to the August Administrative Executive Board through the Emergency
Management Committee for Leadership oversight until closure.

Beginning with the August 2014 Emergency Management Committee meeting: TMS
Emergency Preparedness Management Program training status, attendance, and
participation in Emergency Management exercises will be tracked, monitored, and
documented monthly in the Emergency Management Committee. This report will be
reported monthly to Administrative Executive Board through the Emergency
Management Committee for Leadership oversight until closure.

Recommendation 3.       We recommended that CBOC/Primary Care Clinic staff
consistently complete diagnostic assessments for patients with a positive alcohol
screen.

Concur

Target Date for completion: September 30, 2014

Facility response:

Members of the Clinical Champions Workgroup thoroughly analyzed the process to
complete the AUDIT-C clinical reminder. We identified technical opportunities with the
AUDIT-C Clinical Reminder that hinders consistent completion of the positive clinical
reminder.



VA OIG Office of Healthcare Inspections                                                    18
                                CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA


Staff have been re-educated on the correct process to activate the Positive AUDIT-C
and to use verbal communication as a means to alert the Provider and/or Primary Care
Mental Health Integration (PCMHI) Team of a positive reminder requiring action.

Starting in June 2014, the monthly Alcohol Clinical Reminder completion report will be
reported to Executive Leadership Board through Quality Executive Council for
Leadership oversight until closure.

Recommendation 4. We recommended that CBOC/Primary Care Clinic staff provide
education and counseling for patients with positive alcohol screens and drinking levels
above National Institute on Alcohol Abuse and Alcoholism guidelines.

Concur

Target Date for completion: September 30, 2014

Facility response:

If the alcohol screen is noted to be positive, the Provider completes a diagnostic
assessment and documents the education and counseling provided to the Veteran
during that visit. Additionally, if the AUDIT-C screen is positive, the provider does a
warm hand-off to the Primary Care Mental Health Integration (PCMHI) team member(s)
to facilitate patient education and counseling on substance use and screening for other
co-morbid conditions.

Starting in June 2014, the monthly Alcohol Clinical Reminder completion report will be
reported to Executive Leadership Board through Quality Executive Council for
Leadership oversight until closure.

Recommendation 5. We recommended that CBOC/Primary Care Clinic Registered
Nurse Care Managers receive motivational interviewing training and health coaching
training within 12 months of appointment to Patient Aligned Care Teams.

Concur

Target Date for completion: September 30, 2014

Facility response:

A facility needs assessment was performed to identify staff that have not completed
Motivational Interviewing and Health Coaching training.        A newly hired Health
Behavioral Coach is registered to attend and complete the Motivational Interviewing and
Health Coaching training by July 30, 2014. Upon completion of the training, the Health
Behavioral Coach will provide additional classes to support the effort of 100% of staff
receiving Motivational Interviewing training within twelve months of appointment to a
Patient Aligned Care Team (PACT). Training completion is tracked in the VA Talent
Management System (TMS). Monthly TMS training reports will be reported to Medical



VA OIG Office of Healthcare Inspections                                                    19
                                CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA


Executive Leadership Board (MEB) through Primary Care Staff Meeting for Leadership
oversight until closure.

Recommendation 6.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Facility response:

Target Date for completion: September 30, 2014

The Chief of Staff re-educated clinical service chiefs on the expectation that medication
reconciliation will be completed per VHA Directive 2011-012 and local policy. Beginning
in June 2014, random chart audits will be performed to validate compliance with
medication reconciliation for outpatients prescribed fluoroquinolones. The results of the
chart audits will be reported monthly to Medical Executive Board through Medical
Records Committee for Leadership oversight until closure.

Recommendation 7.         We recommended that staff consistently provide written
medication information that includes the fluoroquinolone.

Concur

Target Date for completion: September 30, 2014

Written medication education is provided to patients receiving fluoroquinolones. Clinical
staff were trained to document that they provided this written education. Beginning in
June 2014, random chart audits will be performed to validate compliance with
documentation of providing written medication information for outpatients prescribed
fluoroquinolones. The results of the chart audits will be reported monthly to Medical
Executive Board through Medical Records Committee for Leadership oversight until
closure.

Facility response:

Recommendation 8.           We recommended               that   staff   provide   medication
counseling/education as required.

Concur

Target Date for completion: September 30, 2014

Clinical staff were educated to document counseling/education specific to key areas
(e.g. side effects, drug interactions, etc.) in CPRS. Beginning in June 2014, random
chart audits will be performed to validate compliance with documentation of providing
counseling/education specific to key areas (e.g. side effects, drug interactions, etc.) for


VA OIG Office of Healthcare Inspections                                                    20
                                CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA


outpatients prescribed fluoroquinolones. The results of the chart audits will be reported
monthly to Medical Executive Board through Medical Records Committee for
Leadership oversight until closure.




VA OIG Office of Healthcare Inspections                                                    21
                                CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA
                                                                                    Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Bruce Barnes, Team Leader
Contributors            Lisa Barnes, MSW
Other                   Lin Clegg, PhD
Contributors            Donna Giroux, RN
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Natalie Sadow, MBA
                        Patrick Smith, M. Stat
                        Randall Snow, JD
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                    22
                                CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA
                                                                                    Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 6 (10N6)
Director, Hampton VA Medical Center (590/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Richard Burr, Kay Hagan, Tim Kaine, Mark Warner
U.S. House of Representatives: G.K. Butterfield, Randy Forbes, Scott Riggell, Robert
 Scott, Robert Wittiman


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                    23
                                      CBOC and PCC Reviews at Hampton VA Medical Center, Hampton, VA
                                                                                         Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    24
